U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

January 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
James W. Richards, IV v. Matthew P. Donovan, Acting Secretary of the Air Force
No. 19-55
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 8, 2019,
and placed on the Court’s docket on July 10, 2019. The government’s response is currently due,
on three extensions, on January 21, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including March 23, 2020, within which to file the government’s response. This extension is
necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court
and with family medical issues.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-0055
RICHARDS, JAMES W., IV
MATTHEW P. DONOVAN, ACTING SEC. OF THE
AIR FORCE, ET AL.

MARK C. BRUEGGER
AIR FORCE LEGAL OPERATIONS AGENCY
1500 WEST PERIMETER ROAD
SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4782
MARK.C.BRUEGGER.CIV@MAIL.MIL

